          AUDIT REPORT 

NATIONAL MUSEUM OF THE AMERICAN INDIAN 

         INFORMATION SYSTEMS 


               Number A-02-06 


               January17,2003 





0       Srnithsonian Institution 

          Office of Inspector General 

                                        SUMMARY

The Office of the Inspector General audited information system security at the National
Museum of the American Indian (NMAI). With the opening of the new Mall Museum
approaching, NMAI requested a comprehensive review of its information security
program. The purpose of the audit was to evaluate information system controls regarding
server and network security, application developments, service continuity, segregation of
duties, and physical conditions.

The following points were considerations throughout our audit: Adequate security of
information and the systems that process it is a fundamental management responsibility.
Of necessity, management must strike a reasonable balance between information
technology security and operational capability because some controls impede operations.

Overall, NMAI did have some system security controls in place regarding system backup,
systems audit trails and server password security features operating. However, we
determined that NMAI system security configurations and safeguards were inadequate
and the risk to system access and data integrity was high. During our audit, NMAI
management made some system account reviews and changes and began reviewing
configuration deficiencies identified during the audit. It is Smithsonian policy, as well as
good business practice, that controls be established to maintain accountability for the
custody and use of resources and to provide reasonable assurance that assets are
safeguarded against loss or unauthorized use. Therefore, we made 24 recommendations
to improve systems security and general system controls at NMAI and 2
recommendations to the Smithsonian Institution Chief Information Officer. The
recommendations to NMAI include:

       developing and implementing technical industry guidance for server and client
       configuration settings;
       defining technology positions to include system security responsibilities;
       reviewing the current system configurations and making adjustments deemed
       necessary to enhance system security;
       defining an NMAI sponsor and formally defining a development implementation
       team for the collection management system, media information management, and
       contact management system; and
       assigning contract oversight responsibilities for evaluating technical changes to
       qualified information technology staff.

The two recommendations to the Chief Information Officer include:
      issuing policies and guidance on the use of peer-to-peer technology for the
      Institution; and
      modifying the Smithsonian Institution network control points to identify large
      files transfers and potential file sharing activities in order to alert network
      administrators.
Both the Director of the National Museum of the American Indian and the Chief
Information Officer generally agreed with the audit recommendations. We recommend
that the Director provide clarification for three recommendations. Overall, we believe
that the corrective actions taken are responsive to the recommendations. For those
recommendations requiring additional implementation plans, we plan to follow up with
the Director.




                                                 difice of &e lnspect$r General
                                                   TABLE OF CONTENTS 


                                                                                                                                                   &
1. Introduction ................................................................................................................................. 1 


        A. Purpose ................................................................................................................................... 1 


        B. Scope and Methodology ....................................................................................................... 1 


        C . Background ............................................................................................................................. 1 


2. Results of Audit ................................................................................................................................   3


        A. System Security Configurations............................................................................................. 3 


        B. Automated Information Systems Developments ................................................................ 11 


        C . Disaster Recovery and Continuity of Operations Plans ..................................................... 14 


        D . Segregation of Duties and Change Management Process .................................................. 16 


        E. System Facilities Physical Conditions ................................................................................ 19 


        F . Isolated NT Network ............................................................................................................ 25 


        G . Peer-to-Peer Technology .....................................................................................................27 

Table 1. Averages Based on Center for Internet Security Scores .......................................................5 

                             . .

Table 2 . User Statistics.........................................................................................................................6 


Table 3. Average Number of Days Since Users Last Password Change ............................................
                                                                                                           6


Table 4 . Average Number of Days Since Last Log On .......................................................................
                                                                                                                       6


Table 5. Physical Observation Summary..........................................................................................
                                                                                                                             16 


Appendix A. NMAI Security Configuration Comparison to Industry Standards .........................31 

                                . .

Appendix B. Electronic Data Archiving ............................................................................................ 32 


Appendix C . Management Comments From W . Richard West, Director, NMAI ........................33 


Appendix D . Management Comments From Dennis Shaw, Chief Information Officer ...............45 

        ABBREVIATIONS AND ACRONYMS

CRC        Cultural Resource Center
GAO        General Accounting Office
GGHC       George Gustav Heye Center
IM         Instant Messaging
IP         Internet Protocol
IT         Information Technology
NCC        Network Communication Center
NIST       National Institute of Standards and Technology
NMAI       National Museum of the American Indian
NSA        National Security Agency
OCIO       Office of the Chief Information Officer
P ~ P      Peer- to-Peer
RITS       Registration Information Transaction System
SANS       System, Audit, Network, Security Institute
SD         Smithsonian Directive
SI         Smithsonian Institution
TRM        Technical Reference Model
UPS        Uninterruptible Power Supply
                                    INTRODUCTION

A. Purpose

With the planned opening of the new Mall Museum approaching, National Museum of
the American Indian (NMAI) recognized the need for improvements in the technology
area. IgMAI requested a comprehensive review and the Office of the Inspector General
initiated an audit of NMAI information systems. The purpose of the audit was to evaluate
NMAI information system controls for systems access, server and network security,
application development and program change management and service continuity.

B. Scope and Methodology

The audit was conducted from July 1,2002, to November 27,2002, in accordance with
generally accepted government auditing standards. The audit methodology consisted of
the following:
        identifying and reviewing applicable policies and procedures related to system
        general controls, computer system security, and integrity of computer resources
        comparing NMAI's system security settings with industry and Smithsonian
        Institution (SI) standards
        evaluating controls to safeguard and protect networks
        assessing the adequacy of controls to prevent and detect unauthorized activities
        including external intrusions, theft, or misuse of computers and networks
        utilizing guidance issued by the National Institute of Standards and Technology,
        National Security Agency, and Microsoft Corporation relating to system security
        configuration, disaster recovery and business continuity planning

We reviewed:
       policies, procedures, and controls relating to system security and data integrity
       controls over server and network configurations
       application development practices
       controls to prevent and detect unauthorized activities

As part of our review, we conducted interviews with technology and systems developers,
administrative staff and support contractors. We spoke with staff from Information and
Technology Resources, the Registrar's group, Film and Video, Membership, and
Development. We also spoke with consultants supporting the FARSIGHT and
Registration Information Transaction System applications. Through interviews, we
gained an understanding of the practices employed concerning system configuration,
network analysis, system access, disaster recovery and business continuity, and change
management.

C. Background

The National Museum of the American Indian seeks to advance knowledge and
understanding of Native cultures and strives to protect, support, and enhance the
development, maintenance, and perpetuation of Native culture and community. As it
prepares to open its new Mall Museum at the end of 2004, NMAI's strategic plan helps
highlight the importance of technology and information management as a priority.
In order to meet the objectives noted in its strategic plan, NMAI recognizes the
importance of information system security planning and the need to protect information
technology resources. Each objective outlined in the plan provides detailed steps for
achieving NMAI's major goals. Furthermore, each of NMAI's major goals strives to
support achievement in the overarching Smithsonian-wide goals of public impact;
focused, first-class research; management excellence; and financial strength.

As part of our review, we identified four major goals that incorporate the need for
information security planning. First, in order to manage a comprehensive program to
open the Mall Museum by the end of 2004, NMAI plans to ensure timely and successful
installation and testing of all electronic, technology, and information management
systems.

Second, in order to preserve, protect, relocate, selectively expand, and provide access to
NMAI collections, NMAI plans to install a collections database (objects, photos, paper)
with user-friendly accessibility for researchers and other interested parties.

Third, in order to enhance and implement organizational and management practices,
procedures, and systems, and adopt appropriate technologies to improve effectiveness,
efficiency, and productivity, NMAI plans to identify NMAI-wide technology and
information management priorities and associated costs. This would include
identification of those baseline technology applications that are essential to facility and
collections management, administrative support, communications, and collaboration
with Native communities and other entities. The Museum recognizes that overall
database management and design is an important part of this process.

Fourth, in order to recruit, retain, support, and reward staff to carry out NMAI's mission,
NMAI plans to manage an active, supportive, and responsive human resources operation.
It would include recruitment, training, implementation of disciplinary actions, time and
attendance tracking, and maintenance of performance plans and appraisals. It would also
establish clear performance targets and provide special training opportunities for NMAI
staff to gain and expand knowledge and proficiency in key areas related to their individual
work.
                                          RESULTS OF AUDIT

A. Svstem Security Configurations

System security configuration at NMAI is vulnerable and does not meet industry security
standard recommendations. Specifically, operating system security patches' and hotfixes,'
or technical solutions to system vulnerabilities, were not up to date and server
configurations were not documented. This occurred because there are no policies,
procedures, or guidelines within NMAI that provide instruction on system security
configuration. Technical staffs training programs were undefined, information
technology position descriptions did not address accountability for system security, and
there was no process in place to perform scheduled server and network risk assessments.
As a result, current system configurations permitted the setting of blank passwords,
allowed unauthorized, undetected connections, and many system users had more system
rights than necessary.

Background

We evaluated NMAI system security at locations in Suitland, Maryland, Washington,
D.C. and New York [George Gustave Heye Center (GGHC) and the Bronx Research
Branch]. We used Smithsonian Directives and industry guidance and standards from the
National Institute of Technology and Standards, General Accounting Office, National
Security Agency, and Microsoft Corporation. The evaluation included a review of
operating system configurations, user accounts, network ports, and vulnerable services.

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that shall apply to Institution units. In particular, the directive requires managers to take
systematic and proactive actions to develop and implement appropriate, cost effective
management controls. It also requires that controls established shall provide reasonable
assurance that assets are safeguard against waste, loss, unauthorized use, and
misappropriation.

Smithsonian Directive 931, Use of Computers e+ Networks, August 5,2002, requires the
protection of business communications from unauthorized access.

The Computer Security Act of 1987 requires the establishment of minimum acceptable.
security practices related to federal computers. This act requires the identification and
protection of systems containing sensitive information and calls for a computer standards
program and security training for users.

National Security Agency (IVSA) Research Study by Trusted Systems Services, Windows
N T Security Guidelines Considerations e5 Guidelines for Securely Configuring Windows N T
in Multiple Environments, 1999, provides guidelines for countering known attacks on
Windows NT installations that expose or modify user data maliciously. The goal is to
make Windows NT as secure as reasonably and practically possible. Implicit in the
guidelines is the understanding that recommendations must be both effective against


' A service pack is a periodic upgrade to the operating system that contains vulnerability fmes.
* Hotfxes are updates addressing specific vulnerabilities and errors introduced between service packs.
' Registry settings and Novel1 servers were not evaluated.
certain threats and also practical. A balance is necessary between security and operations     .
because some controls impede operational capability.

NSA, Guide to Securing Microsoft Windows N T Networks, 2001, identifies a variety of
available Windows NT 4.0 security mechanisms and provides steps or measures for their
implementation. The guide provides a solid security foundation for any Windows NT 4.0
network by offering step-by-step instructions on how to utilize the operating system's
built-in security features, additional add-on service packs, and hotfixes.

Microsoft White Paper, Securing Windows NT Installation, 1997, states the default, out-of-
the-box NT configuration is unsecured. This white paper discusses various security issues
with respect to configuring all Windows NT operating system products for a highly secure
computing environment.

National Institute of Standards and Technology (NIST) Special Publication 800-18, Guide
for Developing Security Plans for Information Technology Systems, December 1998, states
that the objective of system security planning is to improve the protection of information
technology resources. All federal systems have some level of sensitivity and require
protection as part of good management practice. According to NIST, system security
plans should document the protection of the system. Additionally, the completion of
system security plans is a requirement of the Office of Management and Budget Circular
A-130, Management of Federal Information Resources, Appendix 111, Security of Federal
Automated Information Resources, and Public Law 100-235, Computer Security Act of 1987.
The purpose of the security plan is to provide an overview of the security requirements of
the system and describe the controls in place for meeting those requirements. The system
security plan also delineates responsibilities and expected behavior of all individuals who
access the system.

NIST Special Publication 800-26, Security Self-Assessment Guide for Information
Technology Systems, November 2001, states adequate security of information and the
systems that process it is a fundamental management responsibility. This document
provides guidance on applying a framework by identifying 17 control areas, such as those
pertaining to identification and authentication, and contingency planning. The guide
explains that officials must understand the current status of their information security
program and controls in order to make informed judgments and investments that
appropriately mitigate risks to an acceptable level. This self-assessment guide provides a
method for agency officials to determine the current status of their information security
program.

NIST Special Publication 800-14, Generally Accepted Principles and Practices for Securing
Information Technology Systems, September 1996, defines eight principles used as an
anchor on which the federal community should base their information technology
security program. These principles guide personnel when creating new systems, practices
or policies. This guidance defines the purpose of computer security as a way to protect an
organization's valuable resources, such as information, hardware, and software. Through
the selection and application of appropriate safeguards, a security program helps the
organization's mission by protecting its physical and financial resources, reputation, legal
position, employees, and other tangible and intangible assets.
Result of Review

We evaluated system configurations that included server and sub-network security at each
of the NMAI locations. Under the current system configuration, we determined that the
systems are vulnerable and could be strengthened to meet industry security standard
recommendations. We used the Center for Internet Security Scoring Tool as a basis to
evaluate each Microsoft NT server. The tool produces a score by applying the "Windows
Security Scoring Tool" which is a number between one and ten, with ten being the most
secure. The criteria used for scoring are divided into four categories: (1) Service Packs
and Hotfixes, (2) Policies, (3) Security Settings and (4) Available Services and Other
System Requirements. NMAI falls in the low range of average scores with a score of 3.54.
Table 1 summarizes the averages for hotfixes and server scores for each location.




The failure to maintain servers with the most current versions is a risk that can be easily
mitigated. A service pack corrects known problems and provides tools, drivers, and
updates that extend functionality and keep the software code updated. Hotfixes and
security patches are intended for enterprise implementations and provide an extra level of
security for mission-critical software systems. Specifically, security patches eliminate
vulnerabilities by mitigating recognized exploits. According to the NIST, maintaining
and updating applications with the latest hotfixes, patches, and service packs is necessary
to maintain the operational availability, confidentiality, and integrity of information
technology systems. Not all vulnerabilities have related patches, therefore, system
administrators must be aware of vulnerabilities and patches, and have a means to mitigate
"unpatched" vulnerabilities through other methods.

Our review of the server security settings determined that across NMAI, audit policies and
account lockout were not fully activated. Activating and reviewing events from audit
policies can inform administrators of actions that could pose security risks and also
identify the user accounts from which audited actions were taken. Microsoft
recommends auditing and recording particular failed log on attempts, attempts to access
sensitive data, and changes to security settings. Only three of five servers in the New York
area had the audit control function activated. The remainder of NMAI's servers did not.

The account lockout function prevents brute-force password cracking or guessing attacks
on the system. When activated, system administrators can set the number of log on
attempts and the locking duration. In addition, information technology staff had not
activated system password policies specifying password lengths and expiration dates.
Specifically, no NMAI servers had activated the built-in Windows NT password policies.
However, 75 percent of the servers (9 of 12) had activated the expiring password function.
Table 2 shows that the 12 servers had 249 local users. There were 32 users with blank
passwords and most administrative accounts were not renamed. The Guest accounts
were inactivated but not renamed. Both NIST and NSA recommend renaming or
disabling these accounts. See Appendix A for a comparison of NMAI to Industry
configuration standards. Industry standards recommend that users should have limited
access to only what they need in order to perform their duties. An analysis of NMAI users
identified that there are 70 users that have never logged on and 84 users that belong to the
administrator group. A user in the administrator group has unlimited and unrestricted
access to alter and make changes to systems.




Account that have never




Tables 3 and 4 show the administrator group average time since the last password change
was 562.9 days and the average time since last logon was 290.37 days. In addition, all the
users belong to the administrator group on two servers. A review of these users is
necessary to validate the need to maintain the various users and their level of system
access. System administrators have begun this review and have removed some users and
group accounts.
As part of our network analysis, we performed network scans and limited penetration
testing on the NMAI network. Specifically, we researched and used the most common
identified port and service vulnerabilities for Windows operating system. We scanned the
network from both within and outside of the ST network. Although we were unable to
easily identify the NMAI servers from outside the ST network, we were able to
compromise the NMAI network from within the SI network.

We performed port scanning and penetration testing to determine open and vulnerable
ports across the network. We reviewed those machines identified as susceptible to
hacking and focused on the servers and then on the client machines. We used the NSA
report "Windows NT Security Guidelines," as a basis for evaluating server services. In
summary, NSA provides the following recommendations in order to minimize service
risks:
        limit the necessary services that run on a given computer
        eliminate or separate services that interact with one another when not necessary
        perform periodic reviews on each computer on the network
        block server operators that can expand their capabilities or install programs that
        run with full administrative capabilities (Such capabilities are contrary even to
        standard Windows NT settings.)
        permit only full administrators to install services.

We performed limited attempts to penetrate selected machines. We recognized that once
one machine was compromised, the password file containing all users' passwords could
be captured and subsequently used to try to gain access to other machines. This would
create a domino effect across the entire network. From our testing of 379 NMAI
machines, we were able to penetrate 32 machines and collect password files that contained
the system administrator's accounts, which provided us with the ability to compromise
other ST computers.

Based on our analysis, we determined that system security weaknesses stem from the
following:
        a lack of policies and guidance for server and client security configuration
        undefined technical staff training programs
        information technology position descriptions that do not address accountability
       for system security
       no process to perform periodic server and network risk assessments.

Although the Institution is establishing enterprise computer security policies, there is no
NMAI guidance currently in place to assist system administrators in establishing
minimum server and client security configurations. The NIST special publication
Principles and Practicesfor Securing IT Systems, contains 14 practices that define an
effective computer security program. These practices include the guidance for server and
client security configuration that would help NMAI establish goals and assign
responsibilities to administrators and users for the protection of assets under their
custody.

NMAI information technology staff informed us that they did not receive any significant
information technology security training within the last 18 months. Although staff has
been maintaining NMAI systems, NMAI would benefit from a defined technology-
training program that identifies the specific technical skills necessary to maintain its
systems. In addition, individual information technology position descriptions do not
address accountability for system security in which they are inherently responsible for
administering and maintaining. According to numerous federal standards, defining and
implementing technology training programs is critical to the successful administration of
information system resources.

There is no process to perform scheduled server and network risk assessments. Such
assessments would be helpful in the evaluation of the many types of changes that affect
system security. They could include evaluating technological developments, intra-
network and inter-network changes, changes in the value or use of information, or the
emergence of a new threat.

As a result, the lack of standard security system configurations places NMAI system
resources at risk for unauthorized, undetected activities. In addition, without
documented maintenance and administration responsibilities, NMAI cannot ensure that
their systems are maintained in an updated and secure condition.

Conclusion

Based upon our configuration and network analyses, we believe NMAI can improve
systems security by defining security administration responsibilities and introducing an
assessment process into their administration duties. According to federal requirements,
information technology staff should participate in a structured training program that
provides the level of technical skills appropriate to their responsibilities. In addition,
implementing security monitoring tools and performing periodic network scans can limit
risks and vulnerabilities and prevent system compromises.

Recommendations

We made six recommendations to the Director, National Museum of the American
Indian.

    1. 	 Use technical industry guidance to develop and implement server and client
         configuration settings.

Management Comments

Agreed. Management has circulated technical industry guidance among staff. NMAI will
hire a Technology Manager who will issue a series of directives and assume responsibility
for on-going compliance. Additionally, management intends to limit administrator
group privileges to include only necessary personnel.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in June 2003 to obtain the status of this recommendation.
   2. 	 Define technology positions and include a delegation of system security 

        responsibilities. 


Management Comments

Agreed. NMAI has begun a process to revise all technology-related positions and the
duties assigned as part of a general reorganization of the Information and Technology
Resources office. System security responsibilities will be written into position
descriptions and performance measures.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in June 2004 to obtain the status of this recommendation.

   3. Develop a tailored technical training program for technology staff.

Management Comments

Agreed. Management will work with OCIO to assess training needs and develop an on-
going security training program.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in October 2003 to obtain the status of this recommendation.

   4. 	 Develop and implement a semiannual security assessment process for systems and
        network assets that includes server configuration evaluations and network scans
        based on industry standards.

Management Comments

Agreed. NMAI staff will apply the Windows Security Scoring Tool on a quarterly basis and
NMAI's Technology Manager will monitor compliance.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in March 2003 to obtain the status of this recommendation.

   5. Review and determine the necessity of the numerous user accounts.

Management
    -      Comments

Agreed. NMAI system administrators will review and delete unnecessary accounts.
Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in January 2003 to obtain the status of this recommendation.

   6. 	 Review the current system configurations and make adjustments where necessary
        to enhance system security.

Management Comments

Agreed. IVMAI's Information and Technology Resources Manager will oversee systems
security configurations.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in April 2003 to obtain the status of this recommendation.
B. Automated Information Systems Developments

NMAI could benefit by following a system development life cycle methodology for its
current application development projects. Until recently, the Institution did not have
guidance to assist developers who develop application projects. Without a development
methodology, NMAI projects could fail to meet project deadlines and budget
requirements. In addition, without an adequate project plan, management oversight
would be difficult.

Background

The scope of our review consisted of evaluating project management practices for its
application development projects. We interviewed NMAI staff and reviewed
documentation for current projects (Collection Information System, Media Information
Management, Contact Management System) under development.

Smithsonian Directive 910, Information Technology Planning, August 28, 2002, establishes
policies and procedures and assigns responsibilities for strategic and operational
information technology planning within the Institution. Within each of their areas of
responsibility, museums, research centers, and office directors will designate a person to
conduct or coordinate IT planning activities and develop IT plans with guidance from the
Chief Information Officer.

Smithsonian Directive 920, Life Cycle Management, August 5,2002, establishes life cycle
management policies, defines essential elements, and assigns responsibilities governing
the initiation, definition, design, development, deployment, operation, maintenance,
enhancement, and retirement of automated information systems and IT infrastructure
projects at the Smithsonian Institution. In addition, the directive requires logical
planning, managing, and monitoring of automated information system developments.
Each development phase requires specific decisions and actions, to ensure that the system
is being developed and managed efficiently, economically, and that it meets requirements.

Result of Review

In performing our review, we determined that the Museum is in the midst of developing
major application projects. Based upon our evaluation, NMAI could benefit by following
a system development life cycle methodology for its current application development
projects. Reviews of application development documents and discussions with NMAI
development staff determined that no formal development methodology was followed. In
addition, there were no written preliminary project plans or a business case, as required
by the current life cycle management policy. However, the available technical
documentation for the collections and media information projects was detailed. Both
Smithsonian Directives 910 and 920 establish requirements for defining the bases, scope,
and possible improvements for any project. According to the policies, a well-defined
project plan needs to be in place. Additionally, application projects must be supported by
a business case that includes an analysis of the expected costs and benefits, alternative
solutions, and potential programmatic and technical risks. No application development
project should be initiated until supported processes have been reviewed and redesigned
as necessary for their greatest possible effectiveness.
Until recently, the Institution did not have detailed guidance and policies for technology
staff to follow regarding system development projects. Directives 910 and 920 issued in
August 2002 should strengthen the Institution's ability to consistently develop and
implement information systems. NMAI's developer did state that since SI has two new
directives, NMAI plans to follow SI policy when developing and implementing
application projects.

Employing and following a structured system development methodology would assist in
maintaining a project focus and identifying critical paths and development issues before
funds are spent and milestone dates approach or pass. Without project plans, NMAI
projects could fail to comply with deadlines and budget requirements. In addition,
without an adequate project plan, management oversight is difficult. Without a defined
development life cycle, projects become too complex to plan and control successfully.

Conclusion

The Museum has established within its 2002 strategic plan, goals to enhance and
implement organizational management practices, procedures and systems, adopting
appropriate technologies and other methods to improve effectiveness, efficiency, and
productivity. We believe that the adoption of such a structured development
methodology for all development applications, regardless of size, would benefit NMAI
strategic goals.

Recommendations

We made two recommendations to the Director, National Museum of the American
Indian:

   1. 	 Define an NMAI sponsor and formally define a development implementation
       team for the collection management system, media information management, and
       contact management system.

Management Comments

Agreed. NMAI's Collections Information System development implementation team will
be established in February 2003. The Media Information Management System
development implementation team will be established in June 2003, and the Contact
Management System development implementation team will be established in February
2003.

Office of the Inspector General Response

The Director's actions are partially responsive to the recommendation. The
recommendation called for NMAI to assign a sponsor within NMAI to be responsible for
the programs being developed. We request that NMAI identify a unit to sponsor and
have responsibility for overseeing and implementing each program. We will follow up
with the Director in June 2003 to obtain the status of the three systems indicated this
recommendation.
   2. 	 Require that current and future development projects follow the SI life cycle
       management policy.

Management Comments

Agreed. NMAI's Technology Manager has instructed staff to follow recently issued
institutional guidance provided by Technical Standard e+ Guideline IT-920-01 Life Cycle
Management Manual.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. This recommendation is
considered closed.
C. Disaster Recovery and Continuity of Operations Plan

Although a tape backup process is in place, NMAI had not implemented a disaster
recovery and continuity of operations plan for IT services. A disaster recovery and
continuity plan had not been initiated because NMAI is awaiting OCIO guidance for
standardizing sensitivity and risk assessments documentation required for Institution-
wide planning. In addition, funding has been budgeted for fiscal year 2003 to assist in
implementing security plans for major system development projects. Without fully
implementing these plans, the Museum may not be prepared in the event operations are
disrupted due to system failure, compromise, or other disaster.

Background

The scope of our review consisted of evaluating NMAI's existing disaster recovery and
business continuity plans for system resources. We interviewed NMAI management and
information technology staff to gain an understanding of backup and disaster recovery
and continuity of operations plans.

Smithsonian Directive 931, Use of Computers &Networks, August 5, 2002, requires system
administrators to perform data back up and offsite storage of critical data. In addition,
Smithsonian Institution Computer Security Handbook, September 9, 1993, provides
computer secuqjty policies and procedures for all Smithsonian components to develop
disaster recovery and business continuity plans. Disaster recovery safeguards consist of
developing a contingency plan, storing the plan offsite, regularly backing up files and
software, identifying an alternate offsite processing site, and testing the contingency plan.
According to the Handbook, the purposes of a contingency plan are to determine actions
that will minimize the effects of undesirable occurrences, document emergency response
actions like system restart, and establish procedures for recovering from losses.

NIST, The Contingency Planning Guide for Information Technology Systems December
2001, provides instructions, recommendations, and considerations for government IT
contingency planning. According to the guidance, some type of documented procedures
should be in place to provide for the recovery of files, address disaster recovery, and
identify critical processing data. The plan should allow for periodic testing and should
ensure that personnel understand their respective roles during a disaster.

Results of Review

Our review determined that NMAI has not documented or implemented disaster
recovery business continuity of operations plans that cover its system resources. Disaster
recovery and contingency plans assess the adequacy and ensure continuity of operations if
either a complete system failure or failure of system components occurs. For its system
servers, system administrators have an established tape backup process. The tapes,
however, are not stored off site at all locations.

Disaster recovery and continuity of operations planning for critical systems is a top
priority for management. Although, technology staffs have identified processes in the
event of a short-term disruption, management has not taken steps to develop and
implement full disaster recovery and continuity of operations plans because they are
awaiting institution guidance from the OCIO. The OCIO is planning on establishing
policies and guidance for disaster and continuity planning in the near future. In
anticipation of the need for disaster recovery and continuity planning, the Museum has
included funding in its fiscal year 2003 budget for obtaining contract support to assist in
performing sensitivity and risk analyses for major systems.

Without a plan in place, NMAI risks the ability to restore its critical system resources in a
timely manner if one of its components fails due to an unforeseen situation. In addition,
without these plans,*the opening of the new Mall Museum could face disruptions that
could not be addressed in a timely manner.

Conclusion

With the planned opening of the Mall Museum, it is critical that plans are in place to
address any level of system disruption. The top NMAI goal is to manage a comprehensive
program to construct and open the Mall Museum by the end of calendar year 2004. One
of NMAI's objectives is to ensure timely and successful installation and testing of all
electronic, technology, and information management systems necessary for effective
operations, and for linkages with other NMAI operations. Without a disaster recovery
and continuity of operations plan, achievement of NMAI strategic goals is at risk.

In addition, the Museum has an opportunity to consider electronic data archiving
between its three facilities (Manhattan, Suitland, and the new museum opening in the
District) for its disaster recovery continuity of operations. Data archiving provides
numerous benefits in both cost and operations. Appendix B illustrates an example of
electronic data archiving between the three locations. The advantage of electronic data
archiving, or auto archiving as it is sometimes called, is the ability to store offsite without
the extra expense of a hotsite facility. Another advantage of auto archiving is the ability to
quickly restore a system, which increases the amount of system space availability.

Recommendation

We recommended that the Director, National Museum of the American Indian, adopt
and implement a disaster recovery and continuity of operations plan in accordance with
SI policies or current industry standards.

Management Comments

Agreed. NMAI's new Technology Manager will oversee the development of an NMAI
Disaster Recovery and Contingency Plan and the Information and Technology Resources
Manager will oversee implementation of disaster recovery plans.

Office of the Inspector General Response
                                                                                                  TT-
                                                                                                  -     730 -01
The Director's actions are responsive to the recommendation. The Chief Information
Officer issued guidance for conducting sensitivity analyses and risk assessments on--
G v e m b e r 5, 2 0 0 2 , <__.
------\C_---_C
                            ~-__
                              u T t ~ E G i i " ~ n b e g at
                                                          i nany time. We w x ~ u withp
the Director in July 2003 to 06f%n-the-statag of2KisiSfeWmm-ezd'afion.
D. Segregation of Duties and Change Management Process

Currently, there is inadequate segregation of duties for the administration of the financial
application FARSIGHT. In addition, the Museum has not adopted a system change
management process for FARSIGHT. This is occurring because application
administration is being supported outside of the Museum's technology staff. As a result,
inadequate segregation of duties increases the risk that erroneous or improper program
changes could be implemented and that the computer resources could be damaged or
destroyed.

Background

The scope of our review consisted of evaluating the change management process for the
FARSIGHT application. We interviewed NMAI staff, the contracting officer's technical
representative, and the contractor responsible for the application.

General Accounting Office (GAO), Federal Information System Audit Controls Manual,
January 1999, requires that segregation of work responsibilities occur so that no
individual controls all critical stages of a process. It also restricts the designated computer
programmer from independently writing, testing, and approving program changes. The
manual states that inadequately segregated duties increases the risk that erroneous or
fraudulent transactions could be processed, improper program changes could be
implemented, and the computer resources could be damaged or destroyed.

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that shall apply to Institution units. In particular, the directive requires managers to take
systematic and proactive actions to develop and implement appropriate, cost effective
management controls. It also requires that controls established shall provide reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and
misappropriation.

Results of Review

As part of our testing of general access controls, we determined that NMAI has contracted
for server and FARSIGHT application administration that includes making program
change and modifications. FARSIGHT is an application used by 99 users that contains
financial budget and obligations information concerning NMAI projects and salary
forecasting. Typically, separation should exist among individuals who maintain the
applications, individuals who administer the application server, and individuals who
make application changes and modifications. Discussions with the FARSIGHT support
contractor revealed that the contractor performs server administration, application
modifications, testing, and implementation. Further, NMAI is not requiring technical
documentation that explains the application changes or the maintenance of documented
correspondences and requests for changes between the contractor and the contracting
officer's technical representative. In addition, NMAI is providing the contractor with two
computers for their use. These computers and the application server are located in a
public space to ease system administration.

Reliance on a contractor for performance of all of these duties without proper oversight
by technically trained staff is a risk. Responsibilities of the contracting officer's technical
representative include representing the Smithsonian in issues with the contractor,
including acceptability of workmanship, compliance with technical requirements of the
contract, completion of work, and approval for payment. The contracting officer's
technical representative supporting NMAI's FARSIGHT application is not trained in
information technology and not familiar with the segregation of duty responsibilities.
Delegating technical oversight to non-technical staff without adequate training and
experience poses a risk to the Museum.

As a result, it would be difficult for the current contracting officer's technical
representative to effectively question the work of a technical contractor. In addition,
unnecessary software changes could be implemented due to a lack of effective controls to
segregate duties and monitor contract performance. Also, permitting unnecessary
computer access and resources poses a risk of improper use of computer resources within
NMAI and the Institution.

Conclusion

One of the Museum's strategic goals is to enhance and implement organizational and
management practices, procedures, and systems at NMAI and adopt appropriate
technologies to improve the effectiveness, efficiency, and productivity. If staff is
unfamiliar with the Institution's standardization of technologies and oversight, they risk
supporting an ill-advised application or an application that is not a standard. Such
applications could pose additional vulnerabilities and risks.

Recommendations

We made four recommendations to the Director, National Museum of the American
Indian:

    1.	 Assign contract oversight responsibilities for technical contracts to qualified
       information technology staff.

Management Comments

Agreed. NMAI's Information and Technology Resources staff will work closely with the
Contracting Officer's Technical Representatives managing technical projects to provide
contract oversight for technical issues. Information and Technology Resources staff will
apply Life Cycle Management guidelines to legacy systems.

Ofice of the Inspector General Response

The Director's actions are responsive to the recommendation. Although not explicitly
stated by NMAI, we believe that NMAI should have IT staff involved on its current
technical contracts. We request that NMAI clarify whether this is their intent and we will
also follow up with the Director in June 2003 to obtain the status of this
recommendation.
   2. Define and implement, with support from the Office of Contracting, a contract
      modification for the maintenance of system support technology contracts.

Management Comments

Agreed. NMAI will review the existing contract for the FARSIGHT vendor and, with
support from the Office of Contracting, specify systems maintenance requirements.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in April 2003 to obtain the status of this recommendation.

   3. 	 Obtain the system documentation, including changes, from the FARSIGHT
        contractor and establish a change and configuration management process for
        future modifications.

Management Comments

Agreed. Systems documentation will be requested immediately and a change and
configuration management process will be established.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in April 2003 to obtain the status of this recommendation.

   4. 	 Perform an information technology organization assessment to include 

        considering realigning technology positions under a central manager. 


Management Comments

Agreed. NMAI will present a draft proposal to assess information technology
organization and realign technology positions under a central manager to Senior
Management and its Board of Trustees.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in June 2003 to obtain the status of this recommendation.
E. Svstem Facilities Physical Conditions

Physical computer security conditions at NMAI can be improved. Currently, physical
access, fire prevention, air-cooling, plumbing, and housekeeping conditions pose a risk to
system resources and staff. This is occurring because SI has not issued computer room
physical condition policies and NMAI has not obtained budgetary support to enhance its
facilities. In addition, for convenience, NMAI maintains its computer rooms accessible to
non-technology staff. Without appropriate physical and environmental security controls
implemented to protect the system resources, the system resources themselves, are at risk
for unauthorized changes to hardware or software configuration. They are also at risk for
theft. In addition, without strict computer room housekeeping requirements, there is a
risk of fire and accidental damage to equipment.

Background

We visited each location to obtain a first hand observation and understanding of the
physical security current conditions. The scope of our review consisted of evaluating
physical access controls, fire hazards, utilities, and housekeeping risks to computer
resources.

SI Directive 115, Management Controls, July 1996, establishes that management controls
must provide reasonable assurance that assets are safeguarded against waste, loss,
unauthorized use, and misappropriation. Access to resources and records should be
limited to authorized individuals and accountability for the custody and use of resources
should be assigned and maintained.

GAO, Financial Information Systems Control Audit Manual, January 1999, provides
guidance in evaluating computer related controls. The guidance describes access controls
to provide reasonable assurance that computer resources are protected against
unauthorized modifications, disclosure, loss, or impairment. Such controls include
physical controls such as locking computer rooms to limit access. Inadequate access
controls diminish the reliability of computerized data and increase the risk of destruction
or inappropriate disclosure of data.

The NIST special publication, Generally Accepted Principles and Practices for Securing
Information Technology Systems, September 1996, provides instructions,
recommendations, and considerations for government computer security. According to
NIST guidance, security policies and procedures should be in place to protect valuable
resources, such as information, hardware, and software. The security program should
allow for periodic assessments and should ensure that personnel understand their
respective responsibilities.

The NIST special publication 800-18, Guidefor Information Technology Systems,
December 1998, states that physical access controls should be in place to restrict the entry
and exit of personnel from a data center area or room containing network equipment.
Physical access controls should address not only the area containing system hardware, but
also the wiring, and the uninterruptible power and backup operations that support
system operations.
Results of Review

In performing our review, we determined that the physical conditions surrounding
NMAI's computing resources can be improved. Table 5 shows a summary of our physical
observations for each location visited.
                       '
                           Table 5. physical Observation Summary             '


                                               CRC       DC              ' *NY

          Physical Access Control                                 GGHC       The Bronx
          Public access to computer
          resources                            X         X         X             X
          Fire Safety Factors
         Fire suppression prevention
         devices installed and working         x         x         x             x
          No emergency water cutoff            x         x         x             x
          Supporting Utilities
         Building plumbing lines are
         known to endanger svstems
         No uninterruptible power supply
                                           1         I        1    X     1       x       i
                                               x         X         X             X
         Unkempt housekeeping                                      X             X
         IX
          = location is not to standard.
                                                                                         I




At CRC, we observed that although the door to the Network Communication Center
(NCC) room has an electronic lock, it is not used. Also, we observed that the room is left
unattended and this provides opportunities for someone to enter and alter or damage
servers and network equipment. In the New York GGHC facility, the room is accessible
with a key card; however, it is shared with the Film and Video Center. Staff also uses the
space to store their bicycles and other equipment. Additionally, a makeshift office is
established for a support contractor, generating traffic unrelated to the servers'
administration. Further, the servers are located inside a cage that is open at the top.

In the Bronx, the computer room door can be opened with a general key and a network
router is located in an open, unsecured public area next to oily mechanical machinery. In
the Washington, D.C. facilities, the server that maintains financial data is located in an
open, public area. Another server is on top of a file cabinet in a storage room accessible
by others. The servers are also publicly accessible with a general key.

In all locations, we observed that fire suppression and some supporting utilities were not
fully in place. For example, although most locations rely on water sprinkling systems,
there are no emergency water cut-offs. Because most of the system resources are stored in
general building space, there are no backup and auxiliary cooling systems in place. As a '
result, we noted the locations that housed the server resources were warmer than the
remainder of the building.

The two locations in New York pose a significant plumbing risk. In the GGHC facility,
pipes run along the ceiling above the servers and in the Bronx, the server room is located
between two bathrooms, and the room has an open hole in its ceiling. Also, the
equipment is not protected in case of electric shut off and there is no uninterruptible
power supply (UPS) o r no backup generator. NMAI staff stated that they contacted the
local facilities office regarding this problem. In regards to housekeeping conditions, we
noticed that the GGHC computer room contained trash paper and soft drink cans. Such
conditions pose fire and safety hazards and the potential risk of damage to equipment.

In general, these conditions exist because focus has been on the opening of the new Mall
Museum and because of budget and space constraints. Also, the SI does not have detailed
policies that address computer room physical conditions. The OCIO is in the process of
formulating SI policy for computer room physical conditions.

At both the D.C. and CRC locations, the computer rooms are left open to all staff for
convenience purposes. CRC staff explained that the door to the computer room is open
because staff need access to a high quality copier used for graphic copying. In the D.C.
location, the computer servers are placed in publicly accessed locations because a
contractor requires access to perform administration on the FARSIGHT application.
Another server is located in a storage room on top of a file cabinet, but according to staff,
plans exist to relocate this server to OCIO. Other computer servers, however, were
secured from public access. The GGHC staff explained that the computer room is
publicly accessible because, historically, several different offices, including Film and Video
Center, used it. The Bronx server computers are accessible because the lock to the server
room door can be opened with the building front door key. The front door keys can be
obtained from any Bronx facility staff person.

At all locations, although fire sprinklers were visible, hand held fire extinguishers were
not. We believe that the lack of SI policies for computer rooms contributes to staff failure
to maintain additional fire suppression needs. In addition, GGHC staff failure to
maintain general housekeeping is due to the difficulty of management to provide
oversight from a distant location (the CRC) and a lack of SI policy or standards.

Funding and upgrading for the D.C. facility is not planned because resources will be
directed to the new Mall Museum building. At the GGHC, staff stated that UPS has been
requested but not received. In addition, staff stated that requests were made to the
General Services Administration who manages the facility, to assist in determining an
alternative means for backup power supply. Also, at the GGHC, there are visible ceiling
plumbing pipes with no protection to the computers below. Staff stated that with OCIO
involvement, plans are being made to consolidate several SI museums computer resources
in the New York area at the GGHC. It is unclear whether the new plans will address the
plumbing issue because at the time of our audit, formal plans were incomplete.

A lack of physical and environmental access controls increases the risk to computer
resources. Individuals can gain unauthorized access to terminals or telecommunication
equipment that provide access to confidential or sensitive information, substitute
unauthorized data or programs, and steal or inflict malicious damage to computer
resources. In addition, without strict housekeeping requirements, there is a risk of fire
and accidental damage to equipment and staff.
Conclusion

Current industry standards recommend following a "least privilege" access methodology
whereby individuals are limited to system access. Access is granted only to the resources
needed to perform duties. Employing different locks at physical entry points and
terminal locks on computers and relocating public resources from computer rooms are
methods used to limit access.

Recommendations

We made nine recommendations to the Director, National Museum of the American
Indian:

    1. 	 Relocate the copiers from the computer rooms and relocate the routers and
       servers from publicly accessible locations.

    -
Management Comments

Agreed. NMAI plans to relocate the copier from the Network Control Center at the CRC
to a different location. NMAI will also secure the router at the Research Branch and
consider relocation of the servers for RAISER'S EDGE and FARSIGHT.

Office of the Inspector General Resuonse

The Director's actions are responsive to the recommendation. We will follow up with the
Director in May 2003 to obtain the status of this recommendation.

   2. 	 Examine staff access needs and storage requirements at the GGHC computer
        room and develop controls to prevent public access to the system resources.

Manacement Comments

Agreed. NMAI will relocate the video-conferencing equipment and the Film and Video
Contractor.

Ofice of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in May 2003 to obtain the status of this recommendation.

   3. 	 Permit the GGHC computer facilities to be used only for maintaining computer
        resources.

Management Comments

Agreed. NMAI will reorganize staff to permit the GGHC computer facilities to be used
only for maintaining computing resources.
Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in May 2003 to obtain the status of this recommendation.

   4. 	 Establish a separate lock and key at the Bronx location and identify appropriate
        staff to maintain the key.

Management Comments

Agreed. GGHC Security will install a new lock cylinder at the Research Branch and
identify appropriate staff to maintain the key.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in January 2003 to obtain the status of this recommendation.

   5. Install hand held extinguishers in computer rooms.

Management Comments

Agreed. Technology staff persons are researching appropriate hand-held fire
extinguishers for NMAI's computer rooms.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in January 2003 to obtain the status of this recommendation.

   6. 	 While awaiting SI policies on computer rooms, issue guidance to staff on the need
        to maintain a safe working environment and reinforce more oversight of
        computer rooms.

Management Comments

Agreed. NMAI's Information and Technology Resources Manager will speak with staff
and issue written guidance o n the need to maintain a safe working environment.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in January 2003 to obtain the status of this recommendation.
   7. 	 Implement a backup and emergency power supply to secure NMAI system
       resources.

Management Comments

Agreed. NMAI is determining whether the GSA back-up generator can be used by NMAI.
If this generator does not become available, NMAI plans to install additional
uninterruptible power supply at the GGHC facility.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in June 2003 to obtain the status of this recommendation.

   8. 	 Complete the necessary additions to the GGHC computer room and assess the
       overhead plumbing situation.

Management Comments

Agreed. Once storage and staffing decisions are made, the necessary additions to the
GGHC computer room will be undertaken. The Information and Technology Resources
Manager will require plastic sheets to be available to drape over machines.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in July 2003 to obtain the status of this recommendation.

   9. 	 Establish procedures and persons responsible for maintaining proper 

       housekeeping. 


Management Comments

Agreed. NMAI's Information and Technology Resources Manager will establish
procedures and task staff with responsibility for maintaining proper housekeeping.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in January 2003 to obtain the status of this recommendation.
F. Isolated NT Network

NMAI is unnecessarily operating a Windows NT network to support 25 Registrar staff. A
former employee established the network and NMAI maintains it because they believe it
is necessary to support the New York collections move database. Operating a separate
network that is not consistent with the Institution's enterprise network, however,
increases contractor costs in server administration and desktop support. NMAI and
OCIO staff would otherwise perform this additional administration. In addition, there is
a risk of internal NT network vulnerabilities.

Background

We interviewed NMAI Network Communication Center (NCC) administrators, Registrar
administrators, and the Registration Information Transaction System (RITS) database
developer contractor.

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that shall apply to Institution units. In particular, the directive requires managers to take
systematic and proactive actions to develop and implement appropriate, cost effective
management controls. It also requires that controls established shall provide reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and
misappropriation.

Smithsonian Institution, Technical Reference Model (TRM), Version 1.0, December
2001, IT-920-01, applies to program area and technical managers, and others responsible
for information technology systems and services. Compliance is required unless
specifically waived by the Chief Information Officer. The TRM recognizes that the
Institution is composed of varied and incompatible hardware and software. The
heterogeneous nature of the institution's technology infrastructure has constrained its
ability to infuse new technology. The TRM attempts to apply an enterprise approach to
managing technology infrastructure. A more homogenous, standards-based, information
technology infrastructure will provide the foundation for distributed systems, which are
robust and scalable. The TRM attempts to establish consistent information and
communication services throughout the Institution. A standards approach will provide
the ability to update and replace technology in a more cost effective means. The TRM
identifies Novell Netware as the preferred network operating standard.

Results of Review

Through our network analyses and interviews with technology staff, NMAI is
unnecessarily operating a Windows NT network to support 25 Registrar staff. The
Institution's enterprise network is Novell. For this reason, duplicate administration,
outside of the Novell administration is required. The Registrar uses a support contractor
to assist in maintaining the separate Windows NT network.

According to Registrar staff, a former Registrar staff member established the Windows NT
network. The network was maintained under the premise that NCC staff members were
not sufficiently experienced to administer the Registrar's needs and that the New York
collections move required a Windows NT network to operate the RITS database. Based
on our server and network evaluations, however, we determined that NCC staff had
administered similar system resources, and according to the RITS developing contractor,
Windows NT network is not required for operating the RlTS database. Both the RITS
developers and the network administrator stated that the users could access the
application through Novell. In fact, according to the RITS developers, currently, there are
Novell users from Photography, Exhibition, and Curatorial who are accessing RITS. RITS
was developed using Microsoft technology. Technically, only this Microsoft application
needs to be maintained in the Microsoft environment. Users remain independent and
may access the application from a Novell network.

Any unit that operates a separate network that is inconsistent with the Institution's
enterprise network increases contractor support costs in server administration and
desktop support. This additional contracted support otherwise would be performed by
NMAI, NCC, and OCIO staff. In addition, there is a risk of internal denial of service
attacks and data compromises due to the NT server vulnerabilities.

Conclusion

Standardization also has economic benefits because such unnecessary administrative
funding can be put to better use. Also, following the SI technical model encourages
standardization across the Institution.

Recommendation

We recommended that the Director, National Museum of the American Indian, eliminate
the Windows NT network.

Management Comments

Agreed. The Information and Technology Resources Manager will request contract
support to migrate the Registration Information Tracking (RITS) application to be
accessible through the Novell network.

Office of the Inspector General Response

The Director's actions are partially responsive to the recommendations. We request
clarification on whether the Director plans to eliminate the NT network and if not
provide a technical justification to maintain its existence.
G. Peer-to-Peer Technology
                        -.

Use of peer-to-peer technology (p2p4)puts NMAI systems and the SI network at risk. We
found that staff was using p2p programs such as instant messaging and Internet file
sharing programs. They were using instant messaging as a solution to communicate and
file sharing programs for personal downloading of music and video. As a result, NMAI
and SI system resources are vulnerable to viruses, worms, and denial of service attacks.

Background

The scope of our review consisted of evaluating the general software controls. We
reviewed system server applications and client side applications and interviewed
management and information technology staff.

Smithsonian Directive 931, Use of Computers e+ Networks, August 5,2002, requires that
the Institution's computers and networks be used only for Smithsonian related work. The
Directive further states that Smithsonian communications must be protected from
unauthorized access and that sensitive information including electronic mail and file
transfers must be encrypted. The Directive lists different types of computer and network
misuses that include seeking, transmitting, and storing offensive material. It states that
copyrighted and licensed materials should not be used on a personal computer, S1 Net, or
the Internet unless 1egally.owned or otherwise in compliance with intellectual property
laws. Also, it states that each user should not overtax processing and storage capabilities
by minimizing transferring audio and video files. Finally, it grants system administrators
authority to access electronic files for system maintenance or development, system
security, and correcting software problems.

Smithsonian Directive 115, Management Controls, revised July 23, 1996, lists standards
that shall apply to Institution units. In particular, the directive requires managers to take
systematic and proactive steps to develop and implement appropriate, cost effective
management controls. It also requires that controls established shall provide reasonable
assurance that assets are safeguard against waste, loss, unauthorized use, and
misappropriation.

System, Audit, Network, Security Institute (SANS), Peer-to-Peer Networking, October 29,
2001, concludes that the use of p2p software is a credible threat to network security. In
addition, the limited documentation surrounding the technology hinders the capability of
network and system administrators to analyze and obtain knowledge of vulnerabilities
associated with its use. Often system administrators are unaware that users have
downloaded and installed these applications. This lack of awareness renders system
administrators incapable of protecting systems from the many p2p security loopholes.
SANS notes the following problems with p2p technology:
        unnecessary network bandwidth utilization that congests networks
        illegal transfers that involve copyrighted material
        information leakage and loss of control over the data on computers and networks
       virus and Trojan propagation downloaded from untrusted sites.

' According to the SANS Institute, p2p technology is a communication model in which each computer has
the ability to initiate a communication session with other computers running p2p software. P2p
applications enable users to use the Internet to exchange files and communicate.
         internet protocol and machine name disclosure outside the internal trusted
         network and firewall circumvention

Results of Review

NMAI used two p2p technology applications: instant messaging and file sharing. Our
reviews identified Instant Messaging (IM) located on the server. Through network scans,
we identified open ports commonly used by file sharing applications. There are currently
four main IM products available for free. AOL Instant Messenger (AIM), ICQ Instant
Messenger, Yahoo Messenger, and MSN Messenger Service are programs that allow anyone
to determine when users are online and available for messaging, chatting, or file sharing.
IM progidams do not provide the option of restricting others to add their names to their
individual lists5. Some IM programs permit users to share entire file directories. Our
identification of Kazaa, an Internet file sharing program within the NMAI network, also
opens other vulnerabilities similar to the use of IM. Prior to our discovery of Kazaa,
NMAI management notified staff that the museum and the Institution does not condone
the use of p2p file sharing programs such as Napster, Kazaa, and Gnutella, all well known
Internet file sharing programs.

NMAI information technology staff was using IM as a convenient communication
method. During our audit, technology staff removed instant messaging from the server.
Staff used file sharing programs for personal downloading of music and video.
Additionally, NMAI technology staff and the computer security industry have all
                                                        9'
recognized that it is extremely difficult to identi and monitor the use of IM and file
sharing programs within an enterprise network.

As a result, according to Internet and computer security organizations, p2p technologies
contain numerous documented risks. For example, privacy issues arise when personal
and workplace information such as machine names and computers Internet Protocol (IP)
addresses are disclosed. Unless an enterprise encryption program is put in place, all IM
sent and received are transferred in plain text and susceptible to interception. Further,
file transfers could allow infected files to bypass conventional antivirus protection.
Although network gateway antiviral products can limit the transfer of malware7files,
these products must be strategically placed on the network and could interfere with
network performance.

These well known file sharing programs pose a risk. Because shared files are commonly
video and music files, which are extremely large in size as compared to normal network
file traffic, they congest network links and unnecessarily occupy bandwidth required for
official network traffic. Also, storage of large files has the potential to fill up hard drive
and network file storage. It is well known that file sharing applications and their use
provide a conduit for malware to circumvent firewalls and enter networks because almost
all the sources of downloads originate from untrusted sources. The file sharing programs

  Other users can determine when someone is online as long as they are included in their "buddies" list of
contacts. There is no means to restrict someone from being added to someone else's "buddies" list.
  Systems, Audit, Network Security (SANS) Institute, The Instant Messaging Menace: Security Problems in
the Enterprise and Some Solutions, January 31,2002, has identified instant messaging and p2p technology
as a security threat to enterprise networks.
' Malware is malicious code inserted or concealed in legitimate files. Computer viruses and worms are
common malware code.
themselves often have hidden or backdoors built into them that permit outside users to
enter and view files. Additional risks include copyright infringements and viruses and
Trojan Horse program propagation.

Conclusion

Although specifically discovered during this audit, the use of p2p technologies, in all
likelihood, is prevalent across the Institution. Because of the significant risks involved
with p2p technologies, industry computer security experts have devised some remedies
for enterprise networks. For example, industry experts recommend deploying an
intrusion detection system to recognize pattern matching as an alert of large files transfers
to identify potential file sharing activities. In addition, clear and accountable policies give
notice to system users about the dangers and bandwidth disadvantages associated with the
use of this technology.

Recommendations

We made two recommendations to the Chief Information Oficer:

1. Issue policies and guidance on the use of p2p technology for the Institution.

Management Comments

Agreed. The Chief Information Officer plans to analyze safeguards for peer-to-peer
technologies including instant messaging. The CIO plans to issue policies and guidance
by July 2003.

Ofice of the inspector General Response

The CIO's actions are responsive to the recommendation. We will follow up with the
Director in July 2003 to obtain the status of this recommendation.

2. Modify the SI network control points to identify large file transfers and potential file
sharing activities in order to alert network administrators.

Management Comments

Agreed. The CIO plans to upgrade the software in SInet routers by October 2003. These
upgrades will allow the routers to recognize and restrict file sharing network activities.

Ofice of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in October 2003 to obtain the status of this recommendation.
3. We recommended that the Director, National Museum of the American Indian,
perform periodic network and PC reviews to determine if p2p programs are being used
and take appropriate administrative action when necessary.

Management Comments

Agreed. NMAI's Information and Technology Resources Manager will issue guidance
about the use of p2p software and ensure periodic reviews check for misuse of p2p
technology.

Office of the Inspector General Response

The Director's actions are responsive to the recommendation. We will follow up with the
Director in March 2003 to obtain the status of this recommendation.
Appendix A. NMAI Server Security Configurations Compared to Industry Standards
Appendix B. Electronic Data Archiving




                                Containing                            Auto Archiving
                             New York Back Ups                          Software
                                                                                 NMAI-CRC
                                                                                  Suitland
    I                              Sun Microsvstems Box Runninn nix              Maryland




                                                                             3
                                     3
     New York,
     New York
                                                                                            NMAl-
                                                                                           Museum
Process For Auto -Archiving:                                                             Washington,
I.NMAICRC, Suitland, Maryland performs a tape back u p .              Sewer Running Unixl.   DC
The back up i s stored on-site in a fireproof room. Using               Low End Machine
Auto-Archiving software a digital copy is sent via an existing
digital connection to l o c a t i o ~ 2 (washington,
                                          ~~1~       DC)

2. NMAl Washington, DC receives a digital copy of NMAI-
CRC back up. This back up is sent to the tape drive on the
sewer, which received the digital copy of the back up. This
copy is then stored on site at NMAI, Washington,DC. On
another NMAl-Washington,DC sewer the daily back up of
NMAl-Washington i s being backed up to tape, after the back
up has completed a digital copy of NMAl-Washington is
sent to location 3(NMAI-GGHC in New York City) via an
existing digital connection.

3.NMAI-GGHC receives the digital copy of NMAI Washington,
DC back up as well as NMAl CRC back up, both back up are
sent to the tape drives and a separate copy of both back up
is made and stored on site at NMAI-GGHC. A back up of
NMAI-GGHC is backed up on tape and then a digital copy of
NYAI-GGHC i s sent t o NMAlCRC via an existing digital
connection. 

The digital copy of NMAI-GGHC is received at NMAlCRC 

and backed up to tape and stored on site at NMAI-CRC. A 

digital copy of this back up from NMAI-GGHC is sent to 

NMAl-Washington, DC along with the digital back up of NMAl 

CRC. Using this suggested model NMAl would have a back 

up copy of all of their critical data stored at three d i r e n t 

locations i n case of a disaster which destroyed or disabled 

one of the NMAl facilities. 

  Date      January 6 , 2003
    TO      Thomas D. Blair 

     cc     Dennis Shaw, Doug Evelyn, Jane Sledge 

 From       W. Richard West 

Subject 	   Comments on Draft Report on Audit of Information System
            Controls at the National Museum of the American Indian


                Thank you very much for the opportunity to comment on the 

         Draft Report. Please find our written comments attached to this 

         memorandum. 

                I consider information and technology security to be an 

         important part of good management practice and this survey is 

         especially timely as we prepare for the opening of NMAI's new 

         museum on the National Mall. 

                 I very much appreciate this comprehensive review of our
          information security program and your staff's efforts and
          assistance. Let me express NMAI's sincere appreciation for the
          timely and constructive manner of this review and knowledge and
          experience your staff shared with us.          We value your
          recommendations and take them seriously. The facts presented in
          the report are accurate, I concur with all the recommendations,
          and I present an action plan for implementation in the attached     ,

          document.

          Attachment 

A. System Security Confipurations

Recommendation                                  Resmnse               Action 	                                               Tareet Date

1. 	 Use technical industry                    Concur            The Information and Technology Resources (ITR)
     guidance to develop and                                     Manager, Jane Sledge, circulated the System Security
     implement server and client                                 Configuration Summary and Results prepared by the
     configuration settings.                                     Inspector General's representative, David Cole, to
                                                                 technology staff and requested staff to review and update
                                                                 security settings vulnerabilities noted in the document.

                                                                 The ITR Manager will work with a soon to be hired
                                                                 Technology Manager to issue a series of directives to
                                                                 technology staff. The directives will include set account
                                                                 lockouts, enable audit processes, disable or rename guest
                                                                 accounts, and require all users to have passwords.
                                                                 As part of this effort, NMAI will establish a process to
                                                                 document server settings for hardware and software for
                                                                 servers at NMAI locations and circulate this to
                                                                 appropriate technology staff. These directives will be
                                                                 incorporated into Service Level Agreements with OCIO.
                                                                 Provisional actions will be set in place immediately.

                                                                 Access to administrator group privileges will be limited
                                                                 to network and system administrators, authorized
                                                                 contractors, and key ITR staff.

                                                                 NMAI users will be asked to read and sign statements
                                                                 acknowledging compliance with SI Directive 93 1, Use of
                                                                 Computers and Networks, August 5,2002.



'   NMAI is in the process of hiring a new Technology Manager who will assume on-going responsibility for these actions.

s:linfonnation system controls audit 12-16-02 response
Jane Sledge Draft
2. Define technology positions                Concur    NMAI has begun a process to review and revise all           July 2004
   and include a delegation of                          technology-related positions and the duties assigned as
   system security                                      part of a general reorganization of the Information and
   responsibilities.                                    Technology Resources office. We anticipate this process
                                                        to take approximately two years. It will also encompass
                                                        preparation for the opening of the new museum on the
                                                        National Mall for which we anticipate additional staff
                                                        support in FY04. (See also our response to Section D,
                                                        recommendation 3).                                          December 16,
                                                                                                                    2002
                                                        System security responsibilities will be written into new
                                                        position descriptions and performance measures. The
                                                        Inspector General's representative for computer security,
                                                        David Cole, reviewed the position description for
                                                        Technology Manager. Mr. Cole's suggestions were
                                                        incorporated into the position description.

                                                        The CIO, Dennis Shaw, intends to establish a standard
                                                        position description for all SI Network Administrators.
                                                        NMAI will adopt this when it is released.                   July 2004

                                                        Other existing technology position descriptions will be
                                                        revised to incorporate system security as part of the
                                                        reorganization process.


3. Develop a tailored technical               Concur    We will assess the security support needs of the museum February 28,2003
   training program for                                 in conjunction with OCIO and work with OCIO to assess
   technology staff.                                    overall training needs. NMAI's ITR Manager will review
                                                        all technology staff position descriptions and develop an
                                                        on-going security-trainingprogram.

                                                        The Technology Manager will assess individual staff         May 30,2003

s:/infomation system controls audit 12-16-02 response                                                                              2
Jane Sledge Draft
m = = m m = m m m - = = m m m m m m m =                                                                                                         





                                                             members' Individual Development Plans as part of the IT
                                                             Work Plan and evaluate performance and results at the        August 2003
                                                             mid-year review.

                                                             We will reconsider security training needs and set goals     October 2003
                                                             for training money as part of the establishment of work
                                                             plans for FY 04 fiscal year.

       4. Develop and implement a       Concur               This task will be incorporated into the performance          March 2003
          semiannual assessment                              review of the Technology Manager. The Technology
          process for systems and                            Manager will request staff to apply the "Windows
          network assets that includes                       Security Scoring Tool" on a quarterly basis and report the
          server configuration                               results to the ITR Manager.
          evaluations and network scans
          based on industry standards.                       The Technology Manager will monitor and report on a
                                                             quarterly basis to the ITR Manager compliance by             March 2003
                                                             Systems Administrators to install service packs and
 W
                                                             hotfixes.
 QI


       5. Review and determine the                  Concur   As a matter of policy. all NMAI systems administrators       January 28,2003
          necessity of the numerous                          will be requested by the ITR Manager
          user accounts.                                       To investigate the feasibility of implementing
                                                               application specific non-expiring passwords. Some
                                                               applications such as Groupwise are beyond the control
                                                               of NMAI. We will set regularly expiring (90 day)
                                                               passwords to applications that support this capability.
                                                               To provide all NMAI users with the password policy
                                                               when setting up new users.
                                                               To review all existing user accounts and delete
                                                               accounts for which no user exists.




       s l~nformat~on
                   system controls audit 12-16-02 response                                                                                  3
       Jane Sledge Dmfi
6. Review the current system                    Concur          The Technology Manager will provide a monthly report
   configurations and make                                      to the ITR Manager on the status of current systems
   adjustments where necessary                                  configurations and plans for enhancing system security.
   to enhance system security.                                  Systems security maintenance will be incorporated into


B. Automated Information Systems Developments

Recommendation                                   Resvonse            Action                                                                Target Date


1. Define an NMAI sponsor                     Concur            In regard to NMAI's Collections Information System                    February 28,2003
   and formally define a                                        (CIS): We established a staff team to develop
   development                                                  requirements and select the CIS and we will name a
   implementation team for the                                  development team, led by a newly established
   collection management                                        Collections Information System Manager, in February
   system, media information                                    2003. The CIS implementation team will include OCIO
   management, and contact                                      staff and a contract Unix systems administrator.
   management system.
                                                                In regard to the Media Information Management System, June 6,2003
                                                                NMAI will establish an implementation team when the
                                                                Media Technology Working submits its
                                                                recommendations to the CIO for inclusion in the
                                                                Technology Reference Manual. We plan to acquire a
                                                                system in Third Quarter FY03.

                                                                In regard to the Contact Management System, pending                   February 28,2003
                                                                formal approval of NMAl's Senior Management Group,
                                                                Joan Andrews will be appointed to lead the Contact
                                                                Management implementation team.

  This will be one ofthe first actions requested o f the new Technology Manager. In the meantime, the Information and Technology Resources manager will as
lead technology staffat the CRC, GGHC, and L'Enfant Plaza to provide a report and update plans for system security enhancement.

s:linformation system controls audit 12- 16-02 response
Jane Sledge Draft
2. Require that current and       Concur            NMAI's ITR Manager has instructed staff to follow             December 12,
   future development projects                      recently issued institutional guidance provided by            2002
   follow the SI Life Cycle                         Technical Standard & Guideline IT-920-01 Life Cycle
   Management Policy.                               Management Manual.



C. Disaster Recoverv and Continuity of Ouerations Plan

Recommendation                      Resoonse             Action


1. We recommend that the          Concur            We note that OCIO plans to issue TSG IT-960-02,               January 4,2003
   Director, National Museum                        Disaster Recovery and Contingency Planning in
   of the American Indian,                          December 2002. The ITR Manager will review the
   adopt and implement a                            Policy and discuss with staff how best to develop, adopt,
   disaster recovery and                            and implement a Disaster Recovery and Contingency
   continuity of operations                         Plan.
   plan in accordance with SI
   policies or current industry                     NMAI will appoint the new Technology Manager to               March 2 1,2003
   standards.                                       oversee the development an NMAI Disaster Recovery
                                                    and Contingency Plan.                                     %




                                                    The ITR Manager will request the new Technology               July 25,2003
                                                    Manager to implement the plan either as directed by the
                                                    Policy document or by July 2003.
1. Assign contract oversight        Concur   Unfortunately NMAI has not had sufficient           June 2003
   responsibilities for technical            information and technology staff to dedicate to
   contracts to qualified                    the support of its systems. In striving to open
   information technology staff.             three buildings in ten years, NMAI dedicated a
                                             large part of its technology resources to desktop
                                             support staff. As part of a reassessment of its
                                             information and technology staff, NMAI
                                             understands and supports the urgent need to
                                             provide more technical support for computer
                                             applications managed independently by non-
                                             technical staff. Nh4AI requested two new FTEs
                                             in FY03 to strengthen this area. These two
                                             positions should be filled by June 2003.

                                             ITR staff will work closely with COTRs
                                             managing technical projects to provide contract
                                             oversight support for technical issues. ITR staff
                                             will apply Life Cycle Management guidelines to
                                             legacy systems.

                                             We note that FARSIGHT does not commit or
                                             expend funds. It is a "cuff record" financial
                                             tracking system that enables NMAI management
                                             to monitor and plan NMAI's budget and provides
                                             functions not available in SFS. All financial
                                             obligations take place within PeopleSofi, SI's
                                             ERP.
Define and implement, with                     Concur     NMAI will review the existing contract for the      April 2003
support from the Office of                                FARSIGHT vendor and, with support from the
Contracting, a contract                                   Office of Contracting, specify systems
modification for the maintenance                          maintenance requirements.
of system support technology
contracts.

2. 	 Obtain the system          Concur                    System documentation will be requested              December 24,2002
     documentation, including                             immediately and a change and configuration          March 28,2003
     changes, from the FARSIGHT                           management process will be established by the
     contractor and establish a                           end of March 2003.
     change and canfiguration
     management process for
     future modifications.


3. 	 Perform an information                    Concur     NMAI began this task in November 2002. The    April 25,2003 draft
     technology organization                              ITR Manager will present a draft proposal to  proposal
     assessment to include                                NMAI's senior management group by April 25,
     considering realigning                               2003. The proposal will be reviewed, revised, June 2003 Board of
     technology positions under a                         and presented to NMAI's Technology Committee Trustees Review
     central manager.                                     of its Board of Trustees in June 2003.



E. 	 Systems Facilities Physical Conditions

Recommendation 	                                Reswnse   Action                                                     Target Date


1. 	 Relocate the copiers from the             Concur     Plans are already underway to relocate the copier   February 2003
     computer rooms and relocate                          from the Network Control Center at the CRC to a
     the routers and servers from                         different location.

s:linformation system controls audit 12-16-02 response
Jane Sledge Draft
r-  publicly accessible spaces.
                                                         At the Research Branch, Bronx, plans are
                                                         underway to put the router into a locked cabinet
                                                         in the demark location.

                                                         NMAI's L'Enfant Plaza offices do not have a
                                                         computer room to house the servers for Raiser's
                                                         Edge and FARSIGHT. We will consider the
                                                         feasibility of placing these servers in the CRC
                                                         computer room, the OCIO computer room in
                                                                                                            February 2003



                                                                                                            May 2003




                                                         A&I, or propose a non-public space at L'Enfant
                                                         Plaza.



2. 	 Examine staff access needs               Concur     Discussions are underway with GGHC                 May 2003
     and storage requirements at                         management to determine alternative office and
     the GGHC computer room                              storage areas for the Film and Video contractor
     and develop controls to                             now sharing computer room space. NMAI's
     prevent public access to the                        Deputy Director has tasked the ITR Manager and
     system resources.                                   GGHC management to produce a new space plan
                                                         to address these concerns.

                                                         The video-conferencing equipment, now stored in    March 2003
                                                         the GGHC computer room, will be moved to a
                                                         new location.


3. 	 Permit the GGHC computer                 Concur     As stated above, we will move staff around to 
    May 2003
     facilities to be used only for                      accommodate this recommendation. 

     maintaining computer 

     resources. 




s:linfomationsystem controls audit 12-16-02 response 

Jane Sledge Drafl 

4. Establish a separate lock and              Concur    GGHC Security has been requested to install a
   key at the Bronx location and                        new lock cylinder at the Research Branch, Bronx
   identify appropriate staff to                        and discussions have taken place to identify
   maintain the key.                                    appropriate staff to maintain the key.


5. Install hand held extinguishers Concur               Technology staff are researching appropriate
   in computer rooms.                                   hand-held fire extinguishers for NMAI's
                                                        computer rooms. Fire extinguishers will be
                                                        purchased in January.


6. While awaiting SI policies on              Concur    The ITR Manager will speak with staff and issue
   computer rooms, issue                                written guidance.
   guidance to staff on the need
   to maintain a safe working
   environment and reinforce
   more oversight of the
   computer rooms.


7. Implement a back-up and                    Concur    The CRC computer room is connected to the
    emergency power supply to                           back-up generator and has UPS units in place.
    secure NMAI system                                  Myro Rimyk, GGHC Facilities Manager, is
    resources.                                          investigating whether the New York computer
                                                        facilities can be tied into the back-up generators
                                                        at the GGHC and Research Branch. Access to
                                                        the back-up generator may be subject to GSA
                                                        provisions for the Custom House Building. If
                                                        access is not granted, NMAI will acquire 30
                                                        minute UPS.



s:linfomation system controls audit 12-16-02 response                                                        9
Jane Sledge Drafl
8. 	 Complete the necessary                   Concur      Myro Riznyk, GGHC Facilities Manager, is            July 2003
     additions to the GGHC                                investigating the feasibility of installing drain
     computer room and assess the                         pans in the GGHC computer room. Once storage
     overhead plumbing situation.                         and staffing relocations decisions are made, the
                                                          necessary additions to the GGHC computer room
                                                          will be undertaken. The ITR Manager, as part of
                                                          the emergency supplies, require plastic sheets to
                                                          be available to drape over machines.


9. 	 Establish procedures and                 Concur      The ITR Manager will establish procedures and       January 2003
     persons responsible for                              task staff with responsibility for maintaining
     maintaining proper                                   proper housekeeping.
     housekeeping.




F. Isolated NT Network

Recommendation 	                               Res~onse   Action                                                     Target Date


1. 	We recommend that the                  Concur         The ITR Manager will contact SI's technology        April 2003
    Director, National Museum                             support contractor, Infostructures, and request
    of the American Indian,                               contract support to migrate the Registration
    eliminate the Windows NT                              Information Tracking (RITS) application to be
    network.                                              accessible through the Novel1 network.


s:linfomation system conlrols audit 12-16-02 response                                                                              10
Jane Sledge DraA
G. 	Peer-to-Peer Technoloay

Recommendation                                 Resuonse   Action                                                 Target Date


     1. 	 We recommend that the Concur                    The Information and Technology Resources         March 2003
          Director, National                              manager will task staff to perform regular
          Museum of the                                   network and PC reviews to determine if p2p
          American Indian,                                programs are being misused. The Manager will
          perform periodic                                issue guidance to staff about the use of p2p
          network and PC reviews                          software to download copyrighted materials and
          to determine if p2p                             will take appropriate administrative actions.
          programs are being used
          and take appropriate
          administrative action
          when necessary.




s:/infomation system controls audit 12-16-02 response                                                                          11
Jane Sledge Draft
Appendix D. Management Comments from Dennis Shaw, Chief Information Officer




              Srnithsonian Institution                                                          Memo

I             Office of the Chief Information Officer


      Date January 9,2003
        To Thomas D. Blair
           Inspector General



              Chief Information Officer

    Subject   Response to the Inspector General's Draft Report on Audit of Information System
              Controls at the National Museum of the American Indian

              Thank you for the opportunity to comment on the draft audit report on the National
              Museum of the American Indian's information system controls. We agree with the audit
              findings and report recommendations directed at my ofice. Planned actions associated
              with each recommendation are contained in the attachment.




              Attachment


              Aru & Industries Building Room 2361
              WO lebrson Drive SW
              Washington M:105604463 

              101.343.1052 Telrphonr
              lOZ.312.Z884 FU 

                                                                              Atcachrnent

        Response to Audit Report Recommendations on NMAI's IS Controls

Recommendation I : Issue policies and guidance on the use of p2p technology for the
Institution.

Response: Concur. The OClO will analyze options for implcmcnting adequate
safeguards for peer-to-peer technology including instant messaging. Once we ltave
completed our analysis we will issue policies and guidance on the usc of peer-to-pccr
technology by July 2003.

Recommendation 2: Modify the S1 network control points to identify large file tr~nsfers
and potential file sharing activities in order to alert network administrators.

Response: Concur. The OClO will upgrade the software in SInet routers (network
control points) by October 2003. The software upgrade wilI allow the routers to
recognize nctwork applications and restrict this application traffic.
